                             UNITED STATES DEPARTMENT OF EDUCATION
                                               OFFICE OF INSPECTOR GENERAL
                                      1999 OR Y AN STR EET. HA RWOOD CENTER. SU rrE 1440 

                                                      DALLAS. TEXAS 75201 -68 17 

                                                         PHONE, (2 14) 66 1-9530 

                                   AUDIT FAX , (2 14) 66 1-953 1 INVESTIGAT ION FAX, ( 214) 66 1-9589


                                                                                                              Control Number
                                                                                                            ED-OIG/A06-E0018


    June 8, 2005


    Mr. Cecil J. Picard
    State Superintendent of Education
    Louisiana Depattment of Education
    P.O. Box 94064
    Baton Rouge, LA 70804-9064

    Dear Mr_ Picard:

    This Final Audit Report presents the results of our audit of the Title I funds administered by the
    East Baton Rouge Parish School District (East Baton Rouge Parish) for the period July 1,2001,
    through December 31,2003. Our overall objective was to determine whether East Baton Rouge
    Parish properly accounted for and used Elementary and Secondary Education Act of 1965, as
              l
    amended (ESEA), Title I, Part A (Title I), funds in accordance with applicable laws and
    regulations. Specifically, we detetmined whether: (1) Title I expenditures were allowable,
    approved, properly documented, and only used for Title I schools; (2) semi-annual certifications
    were obtained and retained for non-school wide employees; and (3) Title I funds were properly
    allocated.

    We provided a draft of this repOt1 to the Louisiana Department of Education (LDE). In its
    response to our draft report the LDE disagreed with Findings No.1 and No . 2 and concurred
    with Finding No . 3.

    LDE officials provided additional support, not previously provided during the audit, and we
    reduced the amount of unsupported costs questioned in Finding No.1 to $120,059 and in Finding
    No.2 to $28,187.


                                                        BACKGROUND 


    The Title I program is authorized under the ESEA, as amended by Improving America's Schools
    Act of 1994, Public Law 103-382 and the No Child Left Behind Act of 2001, Public Law 107­
    110. Title r is the largest elementary and secondary education program, which supplements State

    I The No Child Left Behind Act of2oo1 reauthorized the ESEA on January 8, 2002, and the Improving America's
    Schools Act of 1994 reauthorized the ESEA on October 20, 1994.


          Our mission is to promote the efficiency. effeclivelJess, and illfeg rily a/ 1l1e Departmem 's prog rams alld operatiolls



a
ED-OIG/A06-E0018                                                                         Page 2 of 8


and local funding for low-achieving children, especially in high-poverty schools. Part A of Title
I provides financial assistance through State Education Agencies to local educational agencies
(LEAs) to ensure that all children have a fair, equal, and significant opportunity to obtain a high-
quality education and reach, at a minimum, proficiency on challenging State academic
achievement standards and State academic assessments.

Title I funds may be used by LEAs for schoolwide or for targeted assistance programs. Under a
schoolwide program, an LEA may consolidate and use Title I funds with other Federal, State,
and local funds in order to upgrade the entire educational program of a school if not less than 40
percent of the children enrolled in the school are from low-income families. Federal funds
consolidated in a schoolwide program lose their specific program identity and may be used for
any costs of a schoolwide program. A school that is ineligible for a schoolwide program, or
chooses not to operate a schoolwide program, may use the Title I funds only for the eligible
children having the greatest need for special assistance.

In distributing funds to schools, an LEA must allocate to each participating school an amount for
each low-income child. However, LEAs must initially reserve funds for homeless, neglected,
and delinquent children, for qualified teachers, choice-related transportation, professional
development, parental involvement, and capital expenses for private school children. LEAs also
must report expenditures that were actually disbursed for goods and services and maintain
adequate documentation of those disbursements.

In fiscal year 2003, the U. S. Department of Education allocated $256 million in Title I funds to
Louisiana’s LEAs. The LDE requires districts to submit reimbursement claims for funds already
expended for approval. During our audit period, East Baton Rouge Parish requested
reimbursement for $31.4 million it disbursed for Title I expenses incurred by 68 schools. The
amounts disbursed, by program fiscal year, were—

                          7/1/01—6/30/02           $11,688,188
                          7/1/02—6/30/03           $12,207,876
                          7/1/03—12/31/03          $ 7,595,281
                                 Total             $31,491,345


                                      AUDIT RESULTS 


East Baton Rouge Parish generally accounted for and used Title I, Part A funds in accordance
with applicable laws and regulations. However, our audit disclosed that East Baton Rouge
Parish (1) did not have the semi-annual certifications for one targeted assistance Title I employee
and did not have personnel activity reports for three district employees; (2) did not properly
account for and use $55,257 in Title I funds in accordance with applicable purchasing
regulations, grant terms, and cost principles, and (3) overpaid a travel expense for a training
symposium.
ED-OIG/A06-E0018                                                                           Page 3 of 8


FINDING NO. 1 – Semi-Annual Certifications Were Not Completed

Most Title I expenditures for payroll and fringe benefits costs were allowable, approved, and
properly documented, and funds were properly allocated to Title I schools. However, East Baton
Rouge Parish did not properly account for $120,059 of Title I funds expended for four
employees. Specifically, East Baton Rouge Parish did not have the semi-annual certifications for
one targeted-assistance Title I employee for the July 1, 2003, through December 31, 2003 time
period.2 The unsupported amount consisted of $13,606 for payroll costs and an estimated $3,328
for fringe benefits costs. Additionally, East Baton Rouge Parish did not have personnel activity
reports or semi-annual certifications for three district employees – two were working on multiple
activities, and one was working 100 percent on Title I. The unsupported amount consisted of
$90,231 for payroll costs and an estimated $12,894 for fringe benefits costs.

Office of Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments, Attachment B, Paragraphs 11.h(3) and (4) (1997) provide that—

           Where employees are expected to work solely on a single Federal award or cost
           objective, charges for their salaries and wages will be supported by periodic certifications
           that the employees worked solely on that program for the period covered by the
           certification. These certifications will be prepared at least semi-annually and will be
           signed by the employee or supervisory official having first hand knowledge of the work
           performed by the employee.

           Where employees work on multiple activities or cost objectives, a distribution of their
           salaries or wages will be supported by personnel activity reports or equivalent
           documentation.

These conditions occurred because East Baton Rouge Parish did not follow its policies and
procedures for maintaining supporting documentation for all expenditures. As a result, the LDE
did not ensure that all expenditures were for Title I employees.


RECOMMENDATIONS

We recommend that the Assistant Secretary for Elementary and Secondary Education instruct the
LDE to—

1.1 Provide sufficient documentation to support $120,059 or refund that amount to the
    Department of Education.

1.2 Require East Baton Rouge Parish to improve its documentation, records storage, and records
    retention and retrieval procedures to ensure that adequate documentation of costs charged to
    Title I and other Federal grants is readily available.



2
    Schoolwide programs are exempt from certification procedures.
ED-OIG/A06-E0018                                                                       Page 4 of 8


LDE’S COMMENTS

The LDE disagreed with our finding and Recommendation 1.1. It agreed to Recommendation
1.2 and agreed to implement enhanced procedures for collecting and maintaining supporting
documentation for all expenditures.

The LDE stated that East Baton Rouge Parish operated schoolwide programs in all schools
during 2001-2002 and 2002-2003 and provided a copy of the LDE Approved Attendance Area
Selection forms to demonstrate. During 2003-2004, one of the schools became a targeted-
assistance school.


OIG’S RESPONSE

We accepted the additional documentation listing all schools in East Baton Rouge Parish that
operated a schoolwide program for 2001-2002 and 2002-2003. As a result, we modified our
recommendation. However, one school operated a targeted assistance program in 2003-2004, in
which East Baton Rouge Parish did not properly account for $16,934 for one teacher.
Additionally, three LEA employees with salaries and fringe benefits totaling $103,125 did not
have semi-annual certifications or personnel activity reports. Although additional documentation
was provided, it was made after our audit period and fieldwork had ended. Those documents
need to be evaluated by the Office of Elementary and Secondary Education to determine their
acceptability.


FINDING NO. 2—Purchases Did Not Comply with Regulations

East Baton Rouge Parish did not properly account for and use $28,186.80 in Title I funds in
accordance with applicable purchasing regulations, grant terms, and cost principles. From a
judgmentally selected review of 109 purchases over the 30-month period of July 1, 2001,
through December 31, 2003, we concluded that East Baton Rouge Parish was not able to provide
adequate documentation for two items.

For the 2001-2002 school year, there was not enough documentation to support that required
price quotes were requested for a supply purchase of $5,828 for student chair desks. EBR did
not have documentation to show written invitations for bids were sent to at least five responsible
bidders.

For the 2002-2003 school year, one expense of $22,359.00 for READ 180, a reading intervention
program, purchased from Scholastic Magazine, Inc. contained no evidence of a sole source
justification.

According to 34 C.F.R. § 80.36(a) a State will follow the same policies and procedures it uses
for procurements from its non-Federal funds when procuring property and services under a
Federal grant.
ED-OIG/A06-E0018                                                                         Page 5 of 8


Under the Louisiana State Purchasing Rules and Regulations, purchases over $5,000 shall be
made by sending out written invitations for bids to at least five responsible bidders. The rules
and regulations also state that if the chief procurement officer determines in writing that there is
only one source, then a contract may be awarded without competition, but this determination
requires an explanation as to why no other source was suitable or acceptable.

OMB Circular A-87, Attachment A, Paragraph C.1 (1997) provides, in part, that—

       To be allowable under Federal awards, costs must . . . Be necessary and reasonable for
       proper and efficient performance and administration of Federal awards . . . Be allocable
       to Federal awards . . . Be adequately documented.

These conditions occurred because East Baton Rouge Parish did not follow its policies and
procedures and the Louisiana State regulations for obtaining competitive bids or sole source
justification for purchases over $5,000. As a result, the LDE did not ensure that all Title I
purchases were needed or that the items purchased represented the best value at the lowest price.


RECOMMENDATION

We recommend that the Assistant Secretary for Elementary and Secondary Education instruct the
Louisiana Department of Education to—

2.1    Refund $28,187 to the Department of Education.


LDE’S COMMENTS

The LDE disagreed with this finding and provided reasons for its disagreement along with data
not previously provided during the audit to support its position. The data provided included bids,
requisitions, and clarification that LDE bid rules do not apply to leases.


OIG’S RESPONSE

We accepted some of the additional documentation provided and reduced the questioned costs to
$28,186.80. While the LDE provided OIG with copies of two bids for student chair desks, we
were not provided evidence that written invitations for bids were submitted to at least five
responsible bidders, as required by the Louisiana State Purchasing Rules and Regulations for
purchases over $5,000. While the information provided did indicate that Scholastic Magazine,
Inc. was the sole source supplier of the READ 180 intervention program, there was no
information or justification for the sole use of READ 180, as opposed to any of the many other
programs that are available.
ED-OIG/A06-E0018 	                                                                    Page 6 of 8


FINDING NO. 3 – Travel Expense Overpayment

East Baton Rouge Parish overcharged Title I $1,000 in travel costs when they inadvertently
wrote a check for $4,330, instead of $3,330. The expense was for nine Title I employees to
attend a training symposium at a cost of $370 each. East Baton Rouge Parish officials said they
later decided to send three additional Title I employees to the training symposium and the vendor
gave them credit for the $1,000 overpayment. However, East Baton Rouge Parish officials could
not provide documentation to substantiate that the $1,000 overpayment was credited to Title I
employees. As a result, East Baton Rouge Parish charged Title I $1,000 which may not have
been expended for Title I purposes.

OMB Circular A-87, Attachment A, Paragraph C.1 (1997) provides, in part, that—

        To be allowable under Federal awards, costs must . . . Be necessary and reasonable for
        proper and efficient performance and administration of Federal awards . . . Be allocable
        to Federal awards . . . Be adequately documented.


RECOMMENDATION

We recommend that the Assistant Secretary for Elementary and Secondary Education instruct the
LDE to—

3.1 	   Provide sufficient documentation to support the $1,000 overpayment or refund that
        amount to the Department of Education.


LDE’S COMMENTS AND OIG’S RESPONSE

The LDE agreed with this finding and provided documentation that East Baton Rouge Parish
refunded $1,000 to the Title I account for the overcharge in Title I travel costs. We accepted the
documentation provided which shows a copy of the check refunded to the Title I account on
March 1, 2005. This finding is considered closed since we were able to establish that the amount
was refunded back to the Title I account.



                  OBJECTIVES, SCOPE, AND METHODOLOGY 


The overall objective of our audit was to determine whether the East Baton Rouge Parish,
properly accounted for and used Title I, Part A grant funds in accordance with the ESEA of
1965, as amended by the Improving America’s Schools Act of 1994, Education Department
General Administration Regulations (EDGAR), and the cost principles in OMB Circular A-87.
ED-OIG/A06-E0018 	                                                                     Page 7 of 8


Specifically, we determined whether: (1) Title I expenditures were allowable, approved,
properly documented, and only used for Title I schools; (2) semi-annual certifications were
obtained and retained for non-schoolwide employees; and (3) Title I funds were properly
allocated.

To accomplish our objective, we—

   • 	 Reviewed the financial statements and OMB Circular A-133 audit reports for the years
       ended June 30, 2001, and June 30, 2002;
   • 	 Reviewed East Baton Rouge Parish’s Title I grant application and budget narrative;
   • 	 Reviewed East Baton Rouge Parish’s Grant Award Notifications;
   • 	 Reviewed written policies and procedures for budgeting, accounting, procurement,
       payroll, and fringe benefits for the Title I grants;
   • 	 For testing purposes, we judgmentally selected a total of $3,932,682 in expenditures from
       a total of $31,491,345 reported during our audit period. For payroll expenditures, we
       judgmentally selected the 78 employees with the largest annual salaries charged to Title I.
       As a result, we tested $3,210,640 of $17,473,105 for payroll charged to Title I. We
       reviewed the employee certifications, accounting, and payroll records.
   • 	 For non-salary expenditures, we judgmentally selected 109 of the largest transactions
       from non-duplicated vendors and reviewed cancelled checks, proper approvals, and
       traced the transactions to supporting documentation. The reviewed transactions
       accounted for $722,042 or 17.7 percent of the total dollars expended to vendors. We
       reviewed 40 transactions for program fiscal year 2001-2002, 43 for program fiscal year
       2002-2003, and 26 for part of program fiscal year 2003-2004; and
   • 	 Interviewed various East Baton Rouge Parish employees, contractors, and LDE officials.

To achieve our audit objective, we relied, in part, on computer-processed Title I funds request
forms submitted to the LDE by East Baton Rouge Parish. We verified the completeness of the
data by comparing source records to computer-generated request forms, and verified the
authenticity by comparing computer-generated request forms to source documents. Based on
these tests, we concluded that the data were sufficiently reliable to use in meeting the audit’s
objective.

We conducted our fieldwork at East Baton Rouge Parish School System between June 7, 2004,
and July 1, 2004. We discussed the results of our audit with East Baton Rouge Parish officials
on July 1, 2004. An exit conference was held with LDE officials on August 31, 2004.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of audit described above.
ED-OIG/A06-E0018                                                                        Page 8 of 8




                             ADMINISTRATIVE MATTERS 



Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on the audit:

                      Raymond J. Simon
                      Assistant Secretary
                      Office of Elementary and Secondary Education
                      U.S. Department of Education
                      400 Maryland Avenue, SW
                      FB6-3W315
                      Washington, DC 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits
by initiating timely action on the findings and recommendations contained therein.
Therefore, receipt of your comments within 30 days would be appreciated.

In accordance with Freedom of Information Act (5 U.S.C §552), reports issued by the Office of
Inspector General are available, if requested, to members of the press and general public to the
extent information contained therein is not subject to exemptions in the Act.


                                                     Sincerely,


                                                     /s/
                                                     Sherri L. Demmel
                                                     Regional Inspector General
                                                       for Audit

Attachment
                                 STATE OF LOUISIANA
                  DEPARTMENT OF EDUCATION
       POST OFFICE BOX 94064, BATON ROUGE, LOUISIANA 70804-9064
                         Toll Free #: 1-877-453-2721
                                http://www.louisianaschools.net


April 13, 2005



Sherri L. Demmel
Regional Inspector General for Audit
U.S. Department of Education
Office of Inspector General
1999 Bryan Street, Suite 2630
Dallas, Texas 75201-6817

Dear Ms. Demmel:

On March 1, 2005, the Louisiana Department of Education (LDE) received Draft Audit
Report, ED-OIG/A06-EOOI8. The Louisiana Department of Education appreciates the
opportunity to respond to the Office oflnspector General's (OIG) findings outlined in its
draft audit report. This response was originally due thirty days after the date of the letter.
On March 15,2005, the LDE requested an extension to respond to the findings. The OIG
granted the extension and required that this response be submitted no later than April 13,
2005.

Attached is a copy of the Louisiana Department of Education's response to the findings.
If you have questions, please contact Dr. Robin Jarvis, Assistant Superintendent of the
Office of Student and School Performance, at 225-342-3355 or use the toll-free number
listed above.

Thank you for your cooperation.

Sincerely,            \


Cecil J. Picard
State Superintendent of Education

CJP:jb

Enclosures

c: 	     Robin Jarvis, Ph.D.
         Susan Aysenne, Ed.D.
         Beth Scioneaux

                            "An Equal Opportunity Employer"
                                                                                    Attachment




                           Louisiana Department of Education
                    Response to Draft Audit Report: ED-OIG/A06-E0018 


                                         Submitted to: 

                                       Sherri L. Demmel 

                              Regional Inspector General for Audit 

                                 U.S. Department of Education 

                                  Office of Inspector General 

                                 1999 Bryan Street, Suite 2630 

                                   Dallas, Texas 75201-6817 





The Louisiana of Department of Education (LDE) appreciates the opportunity to respond to the
Office of Inspector General's (OIG) findings outlined in its February 28, 2005, draft audit report
about the use of Title I funds administered by the East Baton Rouge Parish School District. This
response was originally due thirty days after the date of the letter. On March 15, 2005, the LDE
requested an extension to respond to the findings. The OIG granted the extension and required
that this response be submitted no later than April 13, 2005.


I. SUBJECT: Response to Finding #1: Semi-Annual Certifications Were Not
            Completed

The finding concludes that the East Baton Rouge Parish School System did not properly
account for $194,900.00 of Title I funds for four employees. The Office of Inspector General
(OIG) recommends the district provide sufficient documentation to support the $194,900.00
expenditure or refund the amount. Additionally, the OIG recommended that EBR improve its
documentation, records storage, and records retention and retrieval procedures to ensure that
adequate documentation of costs charged to Title I and other Federal grants is readily available.
East Baton Rouge Parish disagrees with this finding.

Response to Recommendation 1.1:

Specifically, the East Baton Rouge Parish School System did not have semi-annual
certifications for the "targeted assistance" Title I employee for the 2001-2002 and 2002-2003
school years as Children's Charter School was operating a schoolwide program, thus, said
employee can not be designated "targeted assistance." Furthermore, schoolwide programs are
exempt from certification procedures, as stated by the OIG. Attached is a copy of the 2001­
2002 and the 2002-2003 Louisiana Department of Education Approved Attendance Area
Selection forms (Attachment Ja) that indicate all schools in the district were operating school­
wide programs for the periods of time in question. In addition, attached is a memorandum
from the principal of Children's Charter School indicating for the school year (2003-2004),
they chose to become Targeted Assistance (Attachment Jb).


                                                                                                    I

                                                                                  Attachment



 The teacher whose salary is subject to this finding was a Title I Targeted Assistance teacher
 who spent 100% of her time on Title I activities and was 100% Title I funded, beginning with
 the 2003-2004 school year. Attached is the semi-annual certification for the July 1, 2003­
December 31,2003 time period (Attachment Ic). Of note, said attachment is dated before-the­
fact, versus after the time period in question. Attachment Ie, validates Federal Programs
 adherence to an East Baton Rouge Parish School System memorandum referencing OMB
 Circular A-87 and the signing of Personnel Activity Reports (A-87 and Semi-annual
 certifications) after the time periods for which said documents are reported.

The school employee at issue in this finding has reviewed her records to verify her time spent
on Title I activities and has completed after-the-fact documentation. Attached is the following
documentation:

-July 1, 2003 - December 31, 2003 Semi-Annual Certification-Affidavit (Attachment I d)

The following Local Educational Agency (herein LEA) employees at issue in this finding have
reviewed their records to verify their time spent on Title I activities and have completed after­
the-fact documentation.

For the period in question, Ms. Clair Shaw was paid 100% via Title I funds. The attached
documentation (Attachment If), a Selected Ledger by Social, details and validates her salary's
being paid from the Title I account for the period oftime in question.

For the period in question, Ms. Patricia McKenzie was paid 70% via Title I funds and 30% via
General Fund (Attachment Ig). It should be noted that during the period in question, Ms.
McKenzie was granted the following types of leave, in sequential order, and, said leave is
supported by attached after-the-fact documentation: Sick Leave; Sabbatical Leave; Sick Leave;
and then Retirement.

-2002-2003 Documentation of Leave and Affidavits for Patricia McKenzie (Attachment Ig)

Attached also find Semi-Annual Certifications (Attachment Ih) for Ms. Theola Smith. These
after-the-fact semi-annual certifications attest to Ms. Smith's activities for the two funding
sources from which her salary was drawn.

-2002-2003 Affidavits for Theola Smith (Attachment I h)

In the event that the aforementioned documentation does not satisfy the minimal requirements
of the standards for supporting documentation, the following should be noted:

  Both the General Education Provisions Act (GEPA) and the Education Department General
  Administrative Regulations (EDGAR) require the U.S. Department of Education (herein
  USDE) to use proportionality when requiring funds be returned to the federal government. In
  determining proportionality, the USDE must follow the principle that:

        A recipient that made an unallowable expenditure or otherwise failed 

        to account properly for funds shall return an amount that is 



                                                                                                    2
                                                                                      Attachment


       proportional to the extent of the harm its violation caused to an 

       identifiable Federal interest associated with the program under which 

       it received the grant or cooperative agreement. 34 C.F.R. § 

       81.32(a)(1). 


Given the depth, complexity and overall sufficiency of the documentation provided the OIG in
this audit response, the East Baton Rouge Parish School System believes that it has thoroughly
and sufficiently accounted for the federal funds in question. More importantly, the sufficiency of
this documentation indicates that there was no harm caused to any identifiable Federal interest.
Thus, the East Baton Rouge Parish School System maintains that it should not be required to
submit refunds relative to these findings.

Response to Recommendation 1.1:

The OIG further recommended that the LDE require the East Baton Rouge Parish School System
to improve its documentation, records storage and records retention, and retrieval procedures to
ensure that adequate documentation of costs charged to Title I and other Federal grants is readily
available.

In responding to this recommendation, the East Baton Rouge Parish School System has
implemented enhanced procedures for collecting and maintaining supporting documentation for
all expenditures. East Baton Rouge Public School System Policies and Procedures will be
enhanced to increase the level of fiscal scrutiny by which transactions are conducted, including
training of key personnel. Furthermore, semi-annual certifications and OMB Circular A-87
Personnel Activity Reports will be signed and completed by appropriate personnel and
supervisors after the time periods for which the certifications and PAR are submitted (After-the­
Fact documentation).




                                                                                                 3

                                                                                      Attachment




II. SUBJECT: Response to Finding #2: Purchases Did Not Comply With
             Regulations

The finding concludes that the East Baton Rouge Parish School System did not properly account
for and use $55, 257.00 in Title I Funds in accordance with applicable purchasing regulations,
grant terms, and cost principles. In addition, it was stated that the East Baton Rouge Parish
School System was not able to provide adequate documentation for six items. The East Baton
Rouge Parish Schools System disagrees with this finding and provides the following attachments
to support the six items identified as unsupported costs with this finding:




                                    Evidence of          from 3 vendors       Attachment 2a

                 $22,359.00         Sole Source Documentation                 Attachment 2b


                 $7,677.00          Requisition with approving signatures     Attachment 2c


                 $3,592.98          Requisition with approving signatures     Attachment 2d


Professional     $11,000.00         Evidence 3 Quotes from 3 vendors          Attachment 2e
Office

                  $4,800.00         Requisition with approved signatures      Attachment 2/



With reference to Attachment 2c (Compass Learning), detailed documentation demonstrates
that the materials and supplies in question were ordered (Purchase order attached) and received,
and said materials and supplies were paid for with Title I funds (Federal Programs Purchase
Inquiry Documentation) for a Title I Schoolwide program (Glen Oaks High School
Memorandum and correspondence between the school, the vendor, and Federal programs), and
said materials and supplies are being used by Title I students. Thus, East Baton Rouge Parish
Schools System properly accounted for, and used, the fund amount in question. Furthermore,
attached documentation supports costs questioned as unsupported.
Of note, the East Baton Rouge Parish School System does not require a paper requisition form
in order to expedite a request for materials, supplies or property. Beginning with school year
1999-2000 the district instituted an electronic submission and approval process for all
requisitions; therefore, a paper copy of a requisition is not a requirement of East Baton Rouge



                                                                                                   4

                                                                                    Attachment



Parish School System. Attachment 2c includes a signed statement from the East Baton Rouge
Parish Schools System Director of Finance to this effect.
Lastly, the following appears applicable:
 Both the General Education Provisions Act (GEPA) and the Education Department General
 Administrative Regulations (EDGAR) require the U.S. Department of Education to use
 proportionality when requiring funds to be returned to the federal government. In determining
 proportionality, the USDE must follow the principle that:

       A recipient that made an unallowable expenditure or otherwise failed 

       to account properly for funds shall return an amount that is 

       proportional to the extent of the harm its violation caused to an 

       identifiable Federal interest associated with the program under which 

       it received the grant or cooperative agreement. 34 C.F.R. 

       § 81.32(a)(1). 


Since the attached documentation establishes that the District properly allocated and expended
the questioned cost referenced in finding, the East Baton Rouge Parish School System maintains
that it should not be required to submit refunds relative to these findings.

With reference to the OIG finding stating that there was no evidence that Quotes were obtained
from three vendors for materials and supplies purchased from Professional Office Systems
(herein POS), Attachment 2e contains copies of purchase orders, Federal programs
documentation, requisitions, POS maintenance agreements, and more importantly, a copy of
the Louisiana State Procurement Laws.

Obtained from the Assistant Attorney General's Office, Louisiana Department of Justice,
§ III C (2) Public Bid Law (herein PBL) clearly states "PBL is applicable only to purchases and
therefore a pure lease of equipment need not be bid but may be negotiated. Any contract by
which title may be obtained will be considered a purchase and must be bid. See 39:2212A (1)
(a) and AG opinions."

The aforementioned statement indicates that the PBL is applicable to purchases, and given that
the finding at issue is not a purchase, but a lease for maintenance on a copy machine, the East
Baton Rouge Parish School System has met the requirements of the PBL. Said equipment will
not be purchased by the Title I Schoolwide program and thus need not be bid upon.




                                                                                                  5

                                                                                      Attachment




III. SUBJECT: Response to Finding #3: Travel Expense Overpayment

The finding states the District overcharged Title I $1,000 in travel costs when they inadvertently
wrote a check for $4,330.00, instead of $3,330.00.

The East Baton Rouge Parish School System concurs with this finding. Attachment 3a includes
evidence that Boulder Symposium, Inc. refunded EBRPSS $1,000.00 (check number 5312). The
district refunded $1,000.00 (check #83935) to the Title I account on March 1, 2005. A check
from the East Baton Rouge Parish School System Title I Account (#220035) for $1,000.00 was
refunded to the Louisiana Department of Education on March 15, 2005. Additional
documentation that identifies the original source of this error is also included in Attachment 3a.

Also included in Attachment 3a is a copy of the East Baton Rouge Parish School System's Policy
Manual that was approved at the Regular Meeting of the East Baton Rouge Parish School
BoardlPublic Hearing that was held on June 19, 2003. Section D of the Policy Manual outlines
the District's Fiscal Management policies and procedures. In response to Finding #3, the East
Baton Rouge Parish School System has included a memorandum dated April 11, 2005 in
Attachment 3a. This memorandum indicates that in addition to regularly scheduled semi-annual
trainings of the EBRPSS' Purchasing Procedures and Policies - EBRPSS Policy Manual, the
district has scheduled training for April 18, 2005. All finance Department Staff will be required
to attend this training. The desired outcome of which is to ensure that all Finance Department
staff are fully trained and maintain current knowledgeable of all Purchasing Department and
Finance Department Procedures and policies.




                                                                                                 6

